                  

                  

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 



                        Improvements Needed in
                        EPA Training and Oversight
                        for Risk Management Program
                        Inspections
                        Report No. 13-P-0178                    March 21, 2013




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                                  Rick Beusse
                                                      Bao Chuong
                                                      James Hatfield
                                                      Rebecca Matichuk




Abbreviations

CAA               Clean Air Act
CFR               Code of Federal Regulations
EPA               U.S. Environmental Protection Agency
EPCRA             Emergency Planning and Community Right to Know Act
FY                Fiscal Year
OARM              Office of Administration and Resources Management
OECA              Office of Enforcement and Compliance Assurance
OEM               Office of Emergency Management
OIG               Office of Inspector General
OSHA              U.S. Occupational Safety and Health Administration
RMP               Risk Management Plan
RMProgram         Risk Management Program
SEE               Senior Environmental Employment


Cover photos:	 Heat exchanger used to heat anhydrous ammonia before it flows to a reactor to
               produce a fertilizer product at a risk management program facility. The
               highlighted area shows visible corrosion. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                         write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                        1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                          Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                    Washington, DC 20460
                       U.S. Environmental Protection Agency	
                                                     Agency                                                13-P-0178
                                                                                                       March 21, 2013
                       Office of Inspector General


                       At a Glance

                            Glance
Why We Did This Review              Improvements Needed in EPA Training and Oversight
                                    for Risk Management Program Inspections
We conducted this review to
determine whether the U.S.           What We Found
Environmental Protection
Agency (EPA) has adequate           EPA’s management controls for ensuring inspector training and inspection
management controls for             quality provide limited assurance of the effectiveness of its RMProgram
ensuring the effectiveness of its   inspections. Proper training helps inspectors conduct quality inspections.
Clean Air Act Section 112(r)        However, 15 of the 45 RMProgram inspectors nationwide received inspector
risk management program             credentials without documentation indicating that they met minimum training
(RMProgram) inspections.            requirements. Further, six of the 12 supervisors did not meet minimum training
Congress enacted the                requirements. EPA’s management controls did not detect or prevent the cases
RMProgram to reduce the risk        of missed or undocumented training. Weaknesses in controls included
of airborne chemical releases       limitations in training tracking systems and a lack of procedures to ensure that
that could harm the public and      supervisors met their training requirements. Also, contracts and cooperative
lessen the impact of releases       agreements for inspection services did not include training requirements.
that do occur. Regulated
substances include 77 toxic         EPA can strengthen its RMProgram inspection guidance and oversight to
chemicals that could cause          increase assurance that inspectors conduct effective inspections. EPA
death or serious health effects     guidance did not establish minimum guidelines for the scope of inspections.
from short-term exposures and       Further, EPA did not have a process to monitor the quality of inspections.
63 flammable substances.            Generally, inspection reports did not explain the extent to which the inspectors
Properly performed by trained,      reviewed specific elements of a covered process to determine compliance.
knowledgeable inspectors,           Also, our observations of two inspections indicated that procedures to verify the
inspections help ensure that        facilities’ RMProgram activities were limited.
facilities comply with
RMProgram requirements.             An effective inspection program that includes properly trained personnel,
EPA is responsible for              guidance, and oversight helps ensure compliance with program regulations,
assessing compliance at over        thus decreasing the risk of airborne releases of chemicals that could harm the
86 percent of RMProgram             public.
facilities nationwide.
                                     Recommendations and Agency Corrective Actions
This report addresses the
following EPA Goals or              We recommend that EPA strengthen its management controls to ensure that
Cross-Cutting Strategies:           inspectors and supervisors meet minimum training requirements. Also, EPA
                                    should strengthen guidance to include minimum inspection scope for
 Enforcing environmental laws.     RMProgram facilities. Further, EPA should develop minimum inspection
 Cleaning up communities and       reporting requirements and a monitoring program to assess the quality of
  advancing sustainable             inspections. EPA generally concurred with our draft report’s recommendations,
  development.                      and has already initiated corrective actions in some cases. We consider five
                                    recommendations open and one recommendation closed. The Agency’s
                                    response met the intent of the remaining recommendations, but the
                                    recommendations remained unresolved pending receipt of a formal corrective
For further information, contact    action plan with milestone dates and responsible party/office.
our Office of Congressional and
                                     Noteworthy Achievements
Public Affairs at (202) 566-2391.
                                    EPA has made efforts to enhance the quality of RMProgram inspections. 

The full report is at:              For example, EPA provided advanced training courses for inspectors in 2010, 

www.epa.gov/oig/reports/2013/
                                    2011, and March 2012. According to EPA, it also provided the training in 

20130321-13-P-0178.pdf
                                    August, October, and November 2012. EPA also conducted an internal 

                                    assessment of the quality of inspection reports across all 10 regions in 2011. 

                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                            THE INSPECTOR GENERAL



                                         March 21, 2013

MEMORANDUM


SUBJECT:	 Improvements Needed in EPA Training and Oversight for
          Risk Management Program Inspections
          Report No. 13-P-0178


FROM:          Arthur A. Elkins Jr.


TO:	           Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response

               Cynthia Giles, Assistant Administrator 

               Office of Enforcement and Compliance Assurance 


               Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management


This is our report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the
opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 60 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. Please email your response to Carolyn Copper, Assistant Inspector
General for Program Evaluation, at copper.carolyn@epa.gov. We have no objections to the
further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper
at (202) 566-0829 or copper.carolyn@epa.gov; or Rick Beusse, Director for Air and Research
Evaluations, at (919) 541-5747 or beusse.rick@epa.gov.
Improvements Needed in EPA Training and Oversight                                                                                13-P-0178
for Risk Management Program Inspections


                                      Table of Contents

Chapters
   1	    Introduction ..............................................................................................................     1


                 Purpose ............................................................................................................    1

                 Background ......................................................................................................       1     

                 Noteworthy Achievements ................................................................................                5

                 Scope and Methodology ...................................................................................               6


   2	    EPA Needs Better Controls to Ensure That 

         Minimum Inspector Training Requirements Are Met ............................................                                    9


                 RMProgram Training Requirements .................................................................                       9

                 Inspectors Issued Credentials Without Documentation That 

                     Minimum Training Requirements Were Met ...............................................                             10 

                 Program Refresher Requirements Need to Be Clarified ...................................                                11 

                 Half of Supervisors Missed Minimum Training Requirements ..........................                                    11 

                 Management Controls Did Not Ensure Completion of Required Training .........                                           11 

                 Conclusions ......................................................................................................     14 

                 Recommendations ............................................................................................           14 

                 Agency Comments and OIG Evaluation ...........................................................                         15 


   3	    Limited Documentation and Oversight Prevented 

         Assurance That Inspections Were Effective..........................................................                            16


                 EPA’s RMProgram Inspection Process ............................................................                        16 

                 Inspection Reports Lacked Details Demonstrating Effective Inspections .........                                        17 

                 Oversight of Inspections Could Be Strengthened .............................................                           19 

                 Conclusions ......................................................................................................     21 

                 Recommendations ............................................................................................           21 

                 Agency Comments and OIG Evaluation ...........................................................                         21 


   Status of Recommendations and Potential Monetary Benefits ....................................                                       23




Appendices
   A	    Description of RMProgram Elements.....................................................................                         24


   B	    OECA Response to Draft Report ............................................................................                     25 


   C	    OARM Response to Draft Report............................................................................                      27 


   D	    OSWER Response to Draft Report .........................................................................                       29


   E	    Distribution ..............................................................................................................    31

                                   Chapter 1
                                   Introduction
Purpose

            The U.S. Environmental Protection Agency is responsible for assessing
            compliance for over 86 percent of the 12,774 Clean Air Act Section 112(r) risk
            management program facilities nationwide. Our objective was to determine
            whether the EPA has adequate management controls for ensuring the
            effectiveness of its program inspections. Specifically, we sought to determine
            whether:

                  Adequate systems were in place to ensure inspectors and first-line
                   supervisors are properly trained.
                  Adequate guidelines and oversight were in place to ensure that quality
                   inspections are conducted.

Background
            In 1984, an accidental airborne release of a hazardous chemical caused thousands
            of deaths and injuries in Bhopal, India. In response to this accident, Congress
            amended Section 112(r) of the CAA in 1990. The amendment enacted a program
            to prevent airborne releases of certain hazardous chemicals and to mitigate the
            consequences of such releases to the surrounding community. The EPA issued a
            rule implementing the RMProgram in 1996.

            Facilities that contain more than the threshold quantity of any of 140 substances in
            a process are covered under the RMProgram. This includes 77 toxic chemicals that
            can cause serious health effects or death from short-term exposures, and
            63 flammable gases and highly volatile flammable liquids. Covered sources are
            required to conduct a hazard assessment (including analyses of worst-case
            scenarios and 5-year accident history), implement accident prevention and
            emergency response programs, and submit a risk management plan to the EPA. The
            RMP describes and documents the facility’s hazard assessment. The RMP must
            include the results of an offsite consequence analysis for a worst-case chemical
            accident at the facility. Facilities were required to submit their first RMP by
            June 21, 1999, and must update their RMP at least every 5 years. Facilities must
            also update their RMPs when onsite regulated substances or processes change.

            Depending upon the characteristics of a covered process and the results of the
            worst-case analysis and 5-year accident history, a process may be subject to one
            of three sets of program requirements (program levels). The program level
            determines the extent of the prevention program required for the facility. Table 1
            explains the requirements for each program level.


13-P-0178                                                                                        1
            Table 1: RMProgram levels
                Level                   Description                         Requirements
             Program 1     Processes that would not affect the     Limited hazard assessment
                           public in the event of a worst-case     requirements and minimal
                           release and with no accidents with      prevention and emergency
                           specific offsite consequences within    response requirements.
                           the past 5 years.

             Program 2     Processes not eligible for Program 1    Streamlined prevention program
                           or subject to Program 3.                requirements, as well as
                                                                   additional hazard assessment,
                                                                   management, and emergency
                                                                   response requirements.

             Program 3     Processes not eligible for Program 1    Imposes OSHA’s Process
                           and either subject to the U.S.          Safety Management standard as
                           Occupational Safety and Health          the prevention program, as well
                           Administration’s Process Safety         as additional hazard
                           Management standard under federal       assessment, management, and
                           or state OSHA programs, or              emergency response
                           classified in one of 10 specified       requirements.
                           North American Industrial
                           Classification System codes.
            Source: General Guidance on Risk Management Programs for Chemical Accident Prevention
            (Code of Federal Regulations, in 40 CFR Part 68), EPA 555-B-04-001, March 2009.

            A facility’s failure to follow program requirements could lead to accidental
            releases of harmful chemicals and/or inadequate responses to protect the public
            when such accidents occur. Between October 2008 and March 2012,
            323 facilities reported 460 accidents to EPA. These accidents caused over
            $264 million in onsite and offsite damages. Further, the accidents resulted in
            14 worker fatalities, over 330 worker injuries, and over 64,000 people being
            sheltered in place.

            EPA Implements the Risk Management Program in Most States

            EPA’s Office of Emergency Management, within EPA’s Office of Solid Waste
            and Emergency Response, manages the RMProgram. EPA regions directly
            implement the RMProgram in most states. As of May 2012, only eight states and
            five local agencies had accepted full or partial delegation from EPA. EPA regions
            are responsible for assessing compliance at 11,057 facilities (or 86.6 percent) of
            the 12,774 active RMProgram facilities. Figure 1 shows the number of facilities
            that each region oversees.




13-P-0178                                                                                            2
                  Figure 1: Number of RMProgram facilities overseen, by EPA region

                                                 3000




                      Number of RMP Facilities
                                                 2500
                                                 2000
                                                 1500
                                                 1000
                                                 500
                                                   0
                                                        1    2   3    4    5   6    7    8   9   10
                                                                          Region

                  Source: Prepared by the OIG based on data obtained from 

                  RMP National Database.


                  EPA’s National Program Manager’s Guidance specifies the number of inspections
                  that EPA headquarters expects the regions to perform. Between fiscal years 2010
                  and 2012, the regions were to perform inspections at 5 percent of the total number
                  of regulated facilities in the regions. Further, this guidance requires regions to
                  conduct a percentage of inspections at high-risk facilities. In FY 2010, regions
                  were to conduct 10 percent of the inspections at high-risk facilities, and 25
                  percent at high-risk facilities in FYs 2011 and 2012. A high-risk facility is one
                  that meets one or more of the following characteristics established by OEM:

                                                 Facilities whose reported RMP worst-case scenario population exceeds
                                                  100,000 people.
                                                 Any RMProgram facility with a hazard index1 greater than or equal to 25.
                                                 Facilities that have had one or more significant accidental releases within
                                                  the previous 5 years.

                  EPA Policy for Inspector Training

                  EPA Order 3500.12 establishes Agencywide training and development
                  requirements for employees leading compliance inspections. These requirements
                  are to ensure that inspectors have working knowledge of regulatory requirements,
                  inspection methodology, and health and safety measures. Training requirements
                  apply to all persons who lead compliance inspections under any EPA statute. This
                  includes EPA personnel, contractors, and Senior Environmental Employment
                  Program enrollees. The training program consists of three parts:

1
  Hazard index is defined roughly as a measure of the hazard of the chemicals onsite and the size of covered processes 

at the facility. More specifically, it is “the sum over all chemicals of log2 (maximum quantity of inventory 

onsite/threshold), or, alternatively, as the number of chemicals times log2 of the geometric mean of the maximum-to-
threshold quantity ratio.” 

2
  EPA, Training and Development for Individuals Who Lead Compliance Inspections/Field Investigations, 

December 23, 2002. Specifically cited as EPA Order 3500.1 A1. 



13-P-0178                                                                                                                       3
                     	 Occupational health and safety curriculum. Inspectors must take a
                        minimum of 24 hours of health and safety training before conducting an
                        inspection.
                     	 Basic inspector curriculum. Inspectors must take basic inspector
                        training. This training provides a comprehensive overview of knowledge
                        and skills needed for compliance inspections under any EPA statute.
                     	 Program-specific curriculum. Inspectors must take training in legal,
                        programmatic, and technical subjects for their specific program.

                 Once trained, inspectors are issued EPA credentials authorizing them to perform
                 inspections on EPA’s behalf. These credentials are issued or re-issued on a periodic
                 basis. The credentials process is outlined in EPA Order 3510.3 The order states that
                 credentials are issued to qualified individuals who have met the minimum inspector
                 training requirements outlined in EPA Order 3500.1. EPA regions request
                 credentials from EPA’s Office of Administration and Resources Management,
                 which issues credentials to the regions for distribution to the inspectors. To ensure
                 that inspectors’ first-line supervisors are knowledgeable about the program, EPA
                 Order 3500.1 requires the supervisors to meet the following minimum training
                 requirements within 1 year of becoming a supervisor:
                        Health and safety requirements (knowledge and understanding).

                        Basic inspector curriculum.

                        Environmental Statutes Review offered by EPA’s National Enforcement 

                         Training Institute.
                        Documented self study of the program they are responsible for and
                         developing a working knowledge.
                 Working knowledge is defined as the minimum knowledge needed to evaluate the
                 completeness and quality of inspection reports and to sign off on the reports.
                 Developing a working knowledge includes accompanying a lead inspector on an
                 inspection.

                 EPA Guidance on Conducting RMProgram Inspections

                 EPA’s guidance4 for conducting RMProgram inspections outlines several basic
                 steps for conducting an inspection:

                     	 Selecting facilities for inspection. EPA regional offices are required to
                        prioritize inspections at high-risk facilities and should inspect high-risk
                        RMProgram facilities more frequently than other RMProgram facilities.
                     	 Offsite activities. These activities include collecting background
                        information on the facility, planning the inspection, preparing the
                        inspection staff, and planning the logistics of the inspection.
3
  EPA, EPA Federal Credentials for Inspections and Enforcement of Federal Environmental Statutes, EPA Order

3510, October 9, 2008. This Order was updated in October 2012. 

4
  EPA, Guidance for Conducting Risk Management Program Inspections under Clean Air Act Section 112(r), 

EPA-550-K-11-001, January 2011. 



13-P-0178                                                                                                      4
                    	 Onsite activities. These activities include conducting the opening meeting,
                       collecting and analyzing information, and conducting the closing conference.
                    	 Concluding activities. These activities include an inspection team
                       meeting to ensure inspection details were recorded accurately and writing
                       the inspection report.
                    	 Post-inspection actions. These actions include providing compliance
                       assistance or pursuing enforcement action if necessary.

                The guidance includes an inspection checklist to use during the inspection. The
                checklist assists the inspectors in determining whether regulatory requirements
                were met and helps to ensure that inspections meet a basic level of data quality.
                The guidance also includes an inspection report template. The January 2011
                guidance is similar to the program guidance issued in 1999.5 The primary
                difference between the two guidance documents is that the 2011 guidance
                includes provisions for ensuring facility employee participation in the inspection.
                The 2011 guidance also recommends that the inspection include interviews of
                facility employees.

Noteworthy Achievements
                To provide inspectors with the necessary technical knowledge to inspect program
                facilities, EPA provided specialized courses in 2010, 2011, and March 2012.
                According to EPA, it also provided the training in August, October, and
                November 2012. Below is a list of the courses:

                    	 Risk Management Program Refinery Inspector Training, conducted in
                       September 2010, April 2011, and October 2012.
                    	 Understanding Codes & Standards and Mechanical Integrity for Risk
                       Management Program Inspectors, conducted in October 2011 and
                       March 2012.
                    	 Ammonia Refrigeration Systems, Technology, and Safety Workshop for
                       Risk Management Program Inspectors, conducted in November 2011,
                       August 2012, and November 2012.

                The Agency also took steps to increase the effectiveness of its inspection
                resources by implementing a process for identifying and inspecting a greater
                percentage of high-risk facilities. Further, EPA’s OEM assessed the quality of
                inspection reports from all 10 regions in June 2011. OEM presented the results of
                its analysis to the regions. As a result of this analysis, OEM is considering
                whether guidance changes are needed to address the issues identified.




5
 EPA, Guidance for Auditing Risk Management Plans/Programs under Clean Air Act Section 112(r),
EPA 550-B99-008, August 1999.


13-P-0178                                                                                             5
Scope and Methodology
            To assess whether inspectors and first-line supervisors met minimum training
            requirements, we obtained the training records of all RMProgram inspectors and
            first-line supervisors from all 10 EPA regions. At the time of review there were
            45 inspectors and 12 supervisors nationwide. We compared the training records
            with the training requirements outlined in EPA policies and guidance. These
            policies and guidance included EPA Order 3500.1, the EPA Credential and
            Inspector Training Policy Compendium, and EPA Order 1440.2 on Safety and
            Health Training Requirements for Agency Employees. We interviewed inspectors
            and first-line supervisors to determine why certain training requirements were not
            met. We reviewed the procedures and controls for ensuring that inspector training
            qualifications were met.

            To assess whether adequate guidelines and oversight were in place to ensure that
            quality inspections were conducted, we obtained and reviewed applicable
            RMProgram policies, procedures, guidance, and performance measures. We
            interviewed staff and managers from EPA’s OEM, Office of Enforcement and
            Compliance Assurance, and all 10 regions.

            We reviewed inspection reports for RMProgram inspections conducted at
            29 facilities deemed “high-risk” by OEM. These facilities included, but were not
            limited to, oil refineries, chemical plants, and electric utilities. These 29 facilities
            had reported a total of 120 covered processes on their latest risk management
            plans. The 29 inspections were conducted between July 2006 and August 2011
            and included at least one report from each EPA region. During that time period,
            EPA conducted 3,117 inspections nationwide. We examined 11 of the 29
            inspections in more detail to determine the scope of the inspection activities.
            These 11 inspections were selected because the facilities’ worst-case scenario
            could impact populations greater than 10,000. We also interviewed inspectors and
            reviewed inspection documentation to determine the scope of these inspections.

            We observed EPA inspections at two facilities. One of these facilities was a
            fertilizer manufacturing and retail facility, and its RMP included two covered
            processes involving anhydrous ammonia and aqueous ammonia. The other facility
            was a gas processing plant that had one RMProgram-covered process involving
            flammable mixtures and propane. Both facilities had a prior accidental release and
            high-hazard index.

            We conducted our work from June 2011 to November 2012. We limited our review
            to EPA-managed inspection programs and did not review state or local agency
            programs. We conducted this evaluation in accordance with generally accepted
            government auditing standards. Those standards require that we obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our evaluation objectives. We believe the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our objectives.



13-P-0178                                                                                          6
                We assessed training based on compliance with the minimum guidelines
                established by EPA policy. We did not independently test inspector knowledge. We
                did not evaluate the quality of specific training courses required for inspectors. We
                did not assess whether specific inspectors or supervisors are capable of performing
                their job duties or the extent to which they are capable of performing those duties.
                We relied upon a judgmental sample of inspections in assessing controls over
                inspection quality. Thus, we cannot project our sample results to the universe of
                RMProgram inspections. We did not independently assess the effectiveness of
                inspections through our own verification of facility conditions or program
                implementation. Therefore, we did not make any conclusions as to the effectiveness
                of any specific inspection activity we reviewed. However, we reviewed reports from
                all 10 EPA regions and believe our sample size was sufficient to draw conclusions
                about the adequacy of management controls over the inspection process.

                Prior Reports

                In March 2012, we issued an early warning report6 regarding EPA’s use of
                contractors to conduct RMProgram inspections. This practice was prohibited in
                certain states by two separate appellate court rulings in the early 1980s (the U.S.
                Courts of Appeals for the Sixth and Tenth Circuits). The use of contractors to
                conduct CAA inspections on EPA’s behalf was one of two issues presented to the
                U.S. Supreme Court in a 1983 case. Because the Supreme Court did not address
                the question of statutory authority, its decision left unresolved the pre-existing
                split in the federal circuit courts on the question of EPA’s statutory authority to
                use contractors for CAA inspections. Accordingly, EPA issued a policy on
                February 22, 1984, stating that contractors should not, absent express permission
                from headquarters, be designated as representatives of EPA to conduct CAA
                inspections in states located in the Sixth and Tenth Circuits. EPA agreed with our
                recommendations and promptly initiated corrective actions.

                An EPA OIG February 2009 report7 noted that EPA needed to improve the
                implementation of the RMProgram. EPA had inspected less than half the
                identified high-risk facilities since the 1999 inception of the program. Also, EPA
                had not established procedures for identifying facilities that had not submitted
                RMPs, and had not resolved the status of facilities that needed to re-file RMPs.
                We recommended that EPA implement controls to identify covered facilities that
                have not filed RMPs, and that EPA target higher-priority facilities for inspection
                and track progress in completing these inspections. EPA agreed with our
                recommendations and completed the agreed-upon corrective actions.




6
  EPA OIG, Use of Contractors to Conduct Clean Air Act Risk Management Program Inspections in Certain States 

Goes Against Court Decisions, Report No. 12-P-0376, March 28, 2012. 

7
  EPA OIG, EPA Can Improve Implementation of the Risk Management Program for Airborne Chemical Releases,

Report No. 09-P-0092, February 10, 2009. 



13-P-0178                                                                                                    7
                EPA OIG issued a report in March 20098 on EPA Region 8’s management of the
                RMProgram. We recommended that the regional administrator develop (1) a
                strategy for implementing the program that defines program goals, performance
                measures, and organizational responsibilities; and (2) an oversight process to
                evaluate the region’s success in implementing the strategy. Region 8 agreed with
                our recommendations and completed the agreed-upon corrective actions.




8
 EPA OIG, EPA Region 8 Needs to Better Manage the Risk Management Program for Airborne Chemical Releases,
Report No. 09-P-0130, March 30, 2009.


13-P-0178                                                                                              8
                                         Chapter 2

        EPA Needs Better Controls to Ensure That 

    Minimum Inspector Training Requirements Are Met 

                Of the 45 RMProgram inspectors nationwide, EPA had issued inspection
                credentials to 15 inspectors who lacked documentation showing that they met the
                minimum training requirements in EPA Order 3500.1. Further, six of the 12 first-
                line supervisors did not meet minimum training requirements in EPA Order
                3500.1. EPA’s management controls did not prevent or detect instances of missed
                or undocumented training. For example, EPA’s tracking systems for training did
                not include all training requirements and regions did not audit compliance with
                EPA Order 3500.1. Sufficiently trained inspectors and supervisors provide for an
                effective inspection program that better ensures compliance with regulations and
                therefore decreases the risk of airborne releases of chemicals that could harm the
                public.

RMProgram Training Requirements
                EPA Order 3500.1 requires all compliance inspectors to complete annual
                refresher training in the three major training areas discussed in chapter 1. The
                EPA Credential and Inspector Training Policy Compendium outlines the specific
                curriculum for each inspection program. Specific requirements for RMProgram
                inspectors include:

                       Clean Air Act Confidential Business Information, Information Security
                        Manual.
                       Risk Management Plan Basics and Techniques.9
                       Self-study/review of statutes/regulations and guidance/reference materials.
                       Review of a minimum of two completed inspection reports.
                       On-the-job training (conduct a minimum of three program inspections or
                        audits with a senior inspector before leading an inspection).
                       Program-specific refresher training as identified by an inspector’s
                        supervisor.

                Inspectors must maintain their training records and provide a copy to their first-line
                supervisors. Training records include training certificates and certifications of self-
                studies and on-the-job training. According to a December 2009 OECA guidance
                document, all required training taken since the FY 2010 credentials reissuance cycle
                should be recorded in Train Trax, its successor system, or an appropriate alternative
                system. In April 2011, the Emergency Management Portal - Field Readiness Module
                replaced two databases, one of which was Train Trax.

9
 Since June 2008, OEM has offered the 3.5-day Risk Management Program Inspector Training, which combined 

and updated the separate Risk Management Plan Basics and Risk Management Plan Techniques courses. 



13-P-0178                                                                                                    9
            During FY 2010, EPA had 45 RMProgram inspectors who were still RMProgram
            inspectors at the time of our inquiry. This included 26 EPA inspectors, 15 SEE
            inspectors, and four contractor inspectors. All 26 EPA inspectors were issued
            inspection credentials by OARM, and 11 of the 15 SEEs were issued regional
            inspection credentials. The remaining SEE inspectors and the four contractor
            inspectors were issued letters of authorization by their respective EPA regions to
            conduct inspections for EPA.

Inspectors Issued Credentials Without Documentation That Minimum
Training Requirements Were Met

            Fifteen of the 37 RMProgram credentialed inspectors nationwide were issued
            inspection credentials in 2010 without documentation showing that they met the
            minimum training requirements. Another three contractor inspectors had not taken
            all required training. Table 2 summarizes the missed and undocumented training.

            Table 2: Missing or undocumented inspector training requirements
                                          Missed or undocumented training                            Credentials
                                          Confidential Health   On-the-                            issued without
             Employee          Self-        business     and       job                                 proper
               type            study      information   safety  training              Other        documentation
             EPA                 x                                                                       Y
             EPA                 x               x                                                       Y
             EPA                 x                             x3                                        Y
             EPA                 x               x                                                       Y
             EPA                 x               x                                                       Y
             EPA                                                            x                            Y
             EPA                  x                                         x                            Y
             EPA                  x                                         x                            Y
             EPA                  x                                         x                            Y
             EPA                  x                                         x                            Y
             EPA                                                            x                            Y
             EPA                                                            x                            Y
             EPA                                                            x                            Y
             SEE                                                            x                            Y1
             SEE                  x                                         x                            Y1
             Contractor           x              x              x           x            x              NA2
             Contractor           x              x                                                      NA2
             Contractor           x              x                                                      NA2
             1
                 SEE employees are issued regional credentials or letters of authorization.
             2
                 Contractors are issued regional letters of authorization.
             3
                 Inspector did not take annual health and safety refresher in 2010 after he was issued credentials.
            Source: OIG-developed table based on analysis of training data.

            We contacted all 15 of the EPA and SEE inspectors and they indicated the
            following:
                   	 Two inspectors confirmed they did not complete the training.
                   	 Two inspectors said they could not get on-the-job training because they
                      were pioneers in implementing the program, but they did not obtain an
                      exemption from the requirement.



13-P-0178                                                                                                             10
                 Four inspectors said they had completed the required training but had not 

                  documented it, and the undocumented training involved self-studies. 

                Four inspectors self-certified that they completed the required self-studies 

                  and/or on-the-job training about a year after their credentials were issued.
               	 Three inspectors provided a list of at least three inspections each of them
                  had participated in as part of the on-the-job training requirement,
                  something they did not do during the re-credentialing process in FY 2010.
            We also contacted one of the three contractors with missing or undocumented
            training; this contractor confirmed that he did not complete the required training.

Program Refresher Requirements Need to Be Clarified

            Ten inspectors may not have met requirements for basic and program-specific
            refresher training, depending upon the interpretation of EPA Order 3500.1. These
            10 inspectors did not take basic or program-specific refresher training on an
            annual basis. Three regions interpreted EPA’s guidance to only require this
            training on an as-needed basis, while the other seven interpreted EPA’s guidance
            to require this training annually. A staffer in one region noted that guidance used
            phrases that he interpreted as meaning training was at the supervisor’s discretion.
            These phrases included “any necessary refresher” and “additional training
            necessary.” However, the guidance also used language that could be interpreted to
            require the training annually, such as “all compliance inspectors/field
            investigators, full-time or part-time, must complete annual refresher training. . . .”

Half of Supervisors Missed Minimum Training Requirements

            Six of 12 first-line supervisors nationwide did not meet their minimum training
            requirements. These requirements are to be completed within 1 year of becoming
            a supervisor. Three more supervisors had not completed the training but were still
            within the first year of their supervisory position. Missed training included the
            environmental statutes review course and accompanying a lead inspector on an
            inspection. Two of the six supervisors were not aware of these two requirements.
            This training helps provide supervisors with the knowledge needed to evaluate the
            quality and completeness of inspection reports.

Management Controls Did Not Ensure Completion of Required Training

            The Agency’s management controls over inspector training did not prevent or
            detect instances where inspectors and supervisors missed or did not record
            completion of training requirements. Weaknesses in management controls
            included:

                  Limitations in tracking systems for training. 

                  Missing training provisions in contracts and cooperative agreements. 




13-P-0178                                                                                      11
                         No designated responsibility for issuing credentials to contractor and
                          SEE inspectors.
                         Lack of procedures to ensure supervisors meet training requirements.
                         No designated responsibility for auditing regional compliance with EPA
                          Order 3500.1.

                 Limitations in Tracking Systems for Training

                 According to December 2009 OECA guidance, EPA regions should use Train
                 Trax, its successor system (Emergency Management Portal - Field Readiness
                 Module), or a comparable system to track training. Eight regions used the
                 successor system, but we noted that the successor system had limitations that
                 could hinder a region’s ability to accurately track inspector training against EPA
                 requirements. Not all training requirements were populated in the system. In
                 addition, email alerts were not sent to inspectors when impending due dates for
                 training were approaching or training was overdue. Further, training certificates
                 could not be uploaded into the system. OEM staff acknowledged the new
                 system’s limitations and said they were in the process of correcting these
                 deficiencies as of January 2013.

                 Regions 5 and 6 used their own systems to track training. Region 6’s Superfund
                 Division, which inspects smaller non-Title V program facilities, did not use a
                 tracking system. We noted that Region 5’s system did not send email alerts to
                 inspectors when impending due dates for training are approaching or training is
                 overdue. The section chief for the Region 5 RMProgram stated that his division is
                 working on establishing a comprehensive training documentation standard
                 operating procedure that includes an annual reminder mechanism.

                 Requirements Not Included in Contracts and Cooperative Agreements

                 EPA Order 3500.1 requires EPA senior officials to ensure that inspector training
                 requirements are included in extramural agreements for inspection services. All
                 regions had extramural agreements to conduct RMProgram inspections during
                 FYs 2009, 2010, and 2011. With the exception of Region 9’s contract, these
                 agreements did not require compliance with EPA inspector training requirements.

                 Six regions (1, 2, 4, 7, 9, and 10)10 had agreements for contractors to conduct
                 inspections. Only Region 9’s contract included provisions requiring the contractor
                 inspectors to meet EPA Order 3500.1 training requirements. Contracting officers
                 and program personnel who helped develop contracts were not aware of EPA’s
                 policy to include inspector training requirements in contracts.



10
  According to staff in Regions 1 and 10, their regions were not using contractors to lead RMProgram inspections at
the time we finished our review in June 2012. Additionally, since November 9, 2011, Region 1 inspection support
has been ordered from a Region 4 contract.


13-P-0178                                                                                                       12
            Eight regions (1, 3, 5, 6, 7, 8, 9, and 10) used SEE enrollees to conduct
            inspections, and each region had a cooperative agreement with a grantee.
            However, none of these agreements contained EPA Order 3500.1 training
            requirements. The agreements were supplemented with position descriptions, and
            regional offices generally included some training requirements in the position
            descriptions. However, Region 3 was the only region to require compliance with
            EPA Order 3500.1 training requirements in its SEE position descriptions.

            Responsibility for Issuing Credentials to Contractor and SEE
            Employees Not Addressed

            EPA’s policy is to present a credential to an official of the facility at the
            beginning of the inspection. EPA Order 3510 states that EPA credentials, which
            provide inspection authority, should be issued only to qualified individuals. This
            applies to both EPA and non-EPA employees. However, the order does not
            address the responsibility for issuing credentials to contractor or SEE inspectors.
            We found that no contractors or SEE enrollees were issued official EPA
            credentials as described in EPA Order 3510. SEEs were issued regional
            credentials or letters of authorization, and contractors were issued letters of
            authorization. EPA Order 3510 does not discuss regional credentials. Further, the
            order does not state that letters of authorization can be used in lieu of credentials.
            The order states that these letters are issued for on-the-job training, providing
            specialized expertise in the program area or emergency situations.

            EPA updated EPA Order 3510 in October 2012, establishing responsibilities for
            the issuance of credentials to SEEs and contractors.

            No Procedures for Ensuring First-Line Supervisors Meet Training
            Requirements

            EPA Order 3500.1 does not contain procedures for ensuring that first-line
            supervisors meet their training requirements. Three regions (2, 5, and 8) did not
            have a process for ensuring first-line supervisors meet training requirements. Also,
            in Region 6, two divisions conducted RMProgram inspections but one of those
            divisions did not have a process to ensure its supervisor met training requirements.

            Regions Have Not Audited Compliance With EPA Order 3500.1

            EPA Order 3500.1 requires each region to identify a single point-of-contact with
            responsibility for periodically auditing the region’s compliance with the order.
            However, eight regions had not designated an audit point of contact. Also, although
            Regions 4 and 10 had designated points of contact for auditing compliance with the
            order, no audits had been conducted as of May 2012. Further, the Agency had not
            issued guidance on how to conduct these audits and how frequently.




13-P-0178                                                                                       13
Conclusions

            EPA’s management controls did not ensure RMProgram inspectors met minimum
            training requirements. If inspectors are not meeting minimum training
            requirements, EPA lacks assurance that its inspectors are conducting quality
            inspections that help to ensure facilities follow program requirements. These
            requirements are designed to prevent accidental releases of harmful chemicals and
            to ensure adequate responses to protect the public when such accidents occur.
            Given the hazards addressed by the RMProgram, inspector training also helps
            inspectors protect themselves from potentially dangerous exposures.

Recommendations

            We recommend that the Assistant Administrator for Enforcement and Compliance
            Assurance:

               1. 	 Revise the program-specific curriculum training for CAA 112(r) Risk
                    Management Program inspectors to clarify the basic and program-specific
                    inspector refresher requirements.

               2. 	 Develop guidance for conducting compliance audits per EPA Order
                    3500.1, ensure that each region designates a single point of contact
                    responsible for auditing regional compliance with EPA Order 3500.1, and
                    require periodic reporting of regional compliance with the order.

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               3. 	 Strengthen controls over the credentials process to ensure that credentials
                    are only issued to inspectors who demonstrate that they have met the
                    minimum training requirements of EPA Order 3500.1.

               4. 	 Amend existing cooperative agreements for SEE enrollee inspectors to
                    require compliance with EPA Order 3500.1 and ensure that SEE enrollee
                    position descriptions for RMProgram inspectors include the specific
                    training requirements applicable to the position.

               5. 	 Direct EPA Regions 2, 4, 7, and 10 to amend their contracts for inspection
                    support to include provisions requiring contractor inspectors to meet EPA
                    Order 3500.1 training requirements.

            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               6. 	 Correct limitations in the Emergency Management Portal – Field
                    Readiness Module training system, such as populating the system with a


13-P-0178                                                                                     14
                   complete list of training requirements and enabling certificates to be
                   uploaded into the system.

Agency Comments and OIG Evaluation
            OECA disagreed with our draft report’s recommendation 1 to revise EPA Order
            3500.1 to clarify the basic and program-specific refresher training requirements.
            Instead, OECA proposed an alternative correction action to revise the CAA 1112(r)
            RMProgram specific inspector training requirements to clarify refresher training
            requirements. OCEA plans to complete this action by February 28, 2013. We
            accept OCEA’s alternative action and have revised recommendation 1 of the final
            report to reflect the alternative corrective action. Accordingly, the recommendation
            is open pending completion of the corrective action.

            OECA agreed with the draft report’s recommendation 2. OECA proposed to
            develop a checklist to aid the regions in auditing the credential process. OCEA
            plans to complete this action and request regional points of contacts for this
            process by February 28, 2013. OECA stated that it anticipates the Agency’s larger
            Consistent Field Operations project will address periodic reporting of compliance
            with the credentials process. We confirmed that the Agency’s planned actions
            resulting from the Consistent Field Operations project and implementation of the
            Field Operations Guidelines meet the intent of the periodic reporting clause in our
            draft report recommendation 2. Thus, we consider recommendation 2 to be open
            pending completion of the first two parts of the recommendation. Appendix B
            contains OECA’s response to the draft report.

            OARM concurred with recommendations 3, 4, and 5. OARM stated that OECA’s
            planned corrective actions to address recommendation 2 will provide the necessary
            strengthening of the credentials process. OARM also stated that it will continue to
            validate that supervisors have signed the Credential Request Form. Thus,
            recommendation 3 is closed. OARM plans to complete recommendation 4 by June
            30, 2013. Recommendation 4 is open pending its completion. OARM agreed to
            complete corrective actions for recommendation 5 pending completion of certain
            actions by OCEA. Thus, recommendation 5 is unresolved pending receipt of a
            planned completion date. Appendix C contains OARM’s response to the draft
            report.

            OSWER concurred with recommendation 6 and indicated in its written response
            that the corrective actions were complete. However, in confirming whether the
            actions were completed, OSWER staff said that one of the system enhancements
            was not finished. Thus, the recommendation is unresolved pending receipt of a
            planned completion date for the remaining enhancement. Appendix D contains
            OSWER’s response to the draft report.




13-P-0178                                                                                    15
                                  Chapter 3

      Limited Documentation and Oversight Prevented 

         Assurance That Inspections Were Effective 

            RMProgram inspection reports lacked information to demonstrate that effective
            inspections were conducted. In general, reports did not describe the scope of the
            inspection, such as what processes were reviewed. Further, reports did not explain
            the extent to which the inspectors reviewed specific elements of a process. Our
            onsite observations of two inspections indicated that procedures to verify
            implementation of the facility’s RMProgram activities were limited. EPA did not
            have a process for periodically monitoring the quality of inspections. Further,
            EPA inspection guidance did not provide minimum guidelines for the scope of
            inspections. Inspections are a critical Agency tool for ensuring that RMPrograms
            are implemented in accordance with regulations. A facility’s failure to follow
            program requirements could lead to accidental airborne releases of harmful
            chemicals, as well as an inadequate response to protect the public when such
            releases occur.

EPA’s RMProgram Inspection Process

            All regions used inspection checklists to assist in conducting their RMProgram
            inspections. Appendix A lists the RMProgram elements included in EPA’s
            checklist for a program level 3 process.

            EPA’s RMProgram inspection guidance also provides recommended inspection
            activities. These activities range from document reviews to more detailed analyses
            and site verifications to determine whether a facility is implementing its program
            activities as described in its program documentation. EPA’s 1999 inspection
            guidance did not recommend employee interviews. However, the 2011 inspection
            guidance notes that to provide for an effective inspection and to assist in the
            collection and analysis of information, the inspector(s) may interview employees.
            The guidance explains that having an employee who works at the facility and has
            knowledge of the program participate in the inspection may assist the inspector(s)
            in evaluating compliance. The guidance states that special attention should be paid
            to comparing the facility’s RMP to policies and procedures actually implemented,
            especially for production or equipment changes.

            We reviewed 29 RMProgram inspection reports for compliance with EPA
            guidance. This included at least one report from each region. The inspections
            were conducted between July 2006 and August 2011. All of the reports were for
            inspections of high-risk facilities identified by OEM.




13-P-0178                                                                                    16
Inspection Reports Lacked Details Demonstrating Effective Inspections

            We found it difficult to ascertain the scope of inspections based on the inspection
            reports. All regions used an inspection checklist. These checklists ask yes/no/not
            applicable and fill-in-the-blank questions. The inspection report narratives often
            did not explain what work was conducted to address the questions. Also, EPA’s
            inspection reports often did not include the reporting components recommended
            by guidance. The following table provides details on information not included in
            the 29 reports reviewed.

            Table 3: Information missing from inspection reports
                                                                        Number of reports without
                                   Description                          the information (out of 29)
             Facility emergency contact                                              23
             RMP initial submission date                                             28
             RMP updated submission date                                             21
             Reason for selecting facility                                           24
             Facility process identifications                                        25
             Inspector signature                                                     12
             Employee interviews                                                     24
             Approver signature                                                      23
             Lead inspector name                                                     22
             40 CFR Part 68 implementer contact information                          22
            Source: Information developed by OIG based on analysis of EPA inspection reports.

            Regional staff told us that they did not include some of the facility and RMP
            information because it was available in documentation attached to the reports.
            However, we noted that some inspection reports of multiple process facilities did
            not identify the process IDs of the processes inspected.

            In June 2011, OEM started a review of inspection reports and identified problems
            consistent with what we identified. OEM found that:

                   Some reports contained few supporting facts and documentation.
                   Some reports contained facilities’ offsite consequence analysis data that
                    should not be publicly disclosed.
                   Some reports included conclusive statements and recommendations
                    outside of EPA’s authority.
                   Some inspections were performed by one inspector in a half day or less
                    yet reportedly covered the entire inspection checklist.
                   Many inspection findings were based on the existence or completeness of
                    required documentation rather than actual facility status or conditions.
                   Some reports suggested that inspectors were not reviewing the facility
                    RMP prior to inspection.
                   Most reports did not describe the level of employee participation in the
                    inspection.


13-P-0178                                                                                             17
                  Of the 29 inspection reports reviewed, we selected 11 for more detailed analysis.
                  We asked the inspectors of these 11 inspections for any information not included in
                  the reports that provided the basis for their findings. In some cases we were able to
                  determine the activities and analyses the inspectors conducted to provide the basis
                  for their findings. This may have included reviews of supporting documents, such
                  as maintenance records. These activities and analyses by the inspectors generally
                  did not include physically verifying the maintenance work. Further, the additional
                  documentation did not explain how and which activities or components of a process
                  were selected for review. Thus, we could not determine the scope of the
                  inspections.

                  We also observed two onsite inspections—one at a level 3 facility and another at a
                  level 2 facility—that were both included on OEM’s high-risk facility list.
                  We noted that these inspections did not include interviews of non-management
                  facility employees, and only included limited verification of the facilities’
                  implementation of its program. Regarding these two inspections:

                       	 The program level 3 facility inspection was at a gas processing plant. The
                          facility had experienced an accidental release in 2008 requiring the
                          evacuation of 40 people. The facility had one RMProgram-covered
                          process involving flammable mixtures and propane. This process
                          contained approximately 100 vessels,11 each of which would be covered
                          by certain program elements (for example, mechanical integrity). During
                          the approximately 8 hours spent on site, the inspectors were able to obtain
                          samples of documentation relating to six of these vessels and were able to
                          inspect these vessels. Due to an emergency shutdown of the facility and
                          evacuation of employees at the time of the inspection, the inspection team
                          was unable to interview any employees.

                       	 The program level 2 facility inspection was at a fertilizer manufacturing and
                          wholesale facility. The facility had reported two covered processes
                          involving anhydrous ammonia and aqueous ammonia. In 2008, the facility
                          experienced an accidental release of ammonia. This accident resulted in
                          medical treatment for four persons but no hospitalizations. During the 1-day
                          inspection, the inspectors reviewed RMProgram records and toured the
                          facility. This inspection identified a covered process that had not been
                          included in the facility’s RMP.

                  Documenting the scope of inspections helps in planning future inspections and
                  assists national program management. Information on the scope of an inspection
                  can aid an inspector when conducting a later inspection of the same facility. The
                  inspector can use this information to select and review program processes and
                  activities not reviewed during the prior inspection. The inspector can also use this
11
  Vessel is defined in 40 CFR §68.3 as any reactor, tank, drum, barrel, cylinder, vat, kettle, boiler, pipe, hose, or
other container.


13-P-0178                                                                                                               18
            information to follow up on problem areas and ensure that the facility corrected
            identified problems. Also, information on the scope of inspections could be useful
            for managers in providing national guidance. This information could help identify
            areas that need extra scrutiny or identify effective inspection activities.

Oversight of Inspections Could Be Strengthened

            Management controls could be strengthened to provide better assurance that
            inspections are rigorous enough to detect program violations in important
            program elements, such as process hazard analysis and mechanical integrity.
            We identified three areas where controls could be strengthened:

                  Post-inspection monitoring. 

                  Supervisory oversight. 

                  Guidance to address inspection scope and reporting requirements. 


            Post-Inspection Monitoring Program

            Neither headquarters nor the regions had implemented regular post-inspection
            monitoring programs to review and assess the quality of inspections and
            inspection reports against established procedures and guidance. OEM initiated a
            first-time assessment of inspection reports to determine inspection compliance
            with RMProgram inspection guidance about 1 week prior to OIG’s announcement
            of our evaluation. OEM reviewed approximately five reports from each region.
            The results of OEM’s review were consistent with the results of our review.
            OEM’s findings demonstrate the benefits of periodic review.

            Supervisor Oversight

            EPA Order 3500.1 states that first-line supervisors can ensure the quality of
            inspections through the use of performance standards, reviewing inspection
            reports, and accompanying inspectors. However, only six regions had a first-line
            supervisor accompany inspectors on an inspection, and this was not a regular
            exercise in any of these regions. In general, the regions told us inspection reports
            were reviewed by peers, supervisors, or enforcement coordinators. Reports in
            eight regions were not signed by a reviewer or approver.

            Additional Guidance on Inspection Scope and Reporting

            EPA guidance states that the scope of the inspections should be determined by the
            region, but does not provide minimum guidelines for the scope of inspections.
            Further, guidance does not specifically require inspection reports to explain the
            methodology inspectors used to select processes and related activities for review
            during an inspection.




13-P-0178                                                                                      19
                   The size and complexity of facilities covered by the program vary greatly. For
                   example, a dairy may only have one process subject to RMProgram requirements,
                   while an oil refinery can have over 30 processes subject to those requirements.
                   As the elements of the program apply to each covered process, a multi-process
                   facility essentially represents several programs. Inspector resources and time
                   needed to conduct a quality inspection at these different facilities would therefore
                   vary accordingly. At larger facilities in particular, inspectors may have to select a
                   sample of processes to review. Within each program element for that process, the
                   inspectors would need to sample certain activities for detailed review and
                   verification. Information on the inspector’s methodology is critical to determining
                   the extent to which a facility’s program was inspected and whether the inspection
                   was rigorous enough to detect and prevent potential violations.

                   We analyzed the time spent onsite for the 29 inspections. Based on information
                   provided in the inspection reports, we calculated the number of inspector hours
                   spent onsite at the facility.12 The average time spent at the facility by an inspector
                   was 12 hours; the average number of inspector hours (inspectors multiplied by
                   hours at the facility) was 29 hours.

                   Larger and more complex facilities are generally included on EPA’s list of high-
                   risk facilities and need more time to inspect. National program guidance for
                   FYs 2010 through 2012 required regions to inspect at least 5 percent of all their
                   RMProgram facilities with a nationwide target of 578 for FY 2012. In addition,
                   program guidance increased the number of inspections at high-risk facilities. The
                   expected number of inspections at high-risk facilities was 10 percent of all
                   inspections for FY 2010 and increased to 25 percent for FYs 2011 and 2012.

                   Assuming that current inspection resources are being effectively used, it is
                   unlikely that regions can spend more time inspecting high-risk facilities and
                   continue to meet an overall program goal to inspect 5 percent of all facilities each
                   year. EPA plans to reduce the overall inspection target for FY 2013 to 500, with
                   30 percent at high-risk facilities. According to OEM management, if requested
                   budget increases are not approved, they plan to reduce the target to 460 while
                   maintaining the 30-percent target for high-risk facilities. An increase in funding
                   would represent a change in recent years’ trends. Combined Emergency Planning
                   and Community Right to Know Act (EPCRA) and RMProgram funding has
                   declined since FY 2009. Table 4 shows the regions’ combined RMProgram and
                   EPCRA budgets for FYs 2009–2011.13




12
  Many reports did not include starting and ending times. To be conservative in our estimates, we counted these 

inspections as lasting 8 hours. However, our observations and other documentation indicate that some 1-day

inspections do not include 8 hours at the facility. 

13
     EPA’s budget combines funding for the EPCRA and RMPrograms.



13-P-0178                                                                                                           20
            Table 4: EPA regions’ combined RMProgram and EPCRA budgets
                                                                         Percent budget
              Fiscal             Budget             Budget change from    change from
               year            (in $000s)             previous year       previous year
              2009               $6,492                     N/A                N/A
               2010              $6,284                    (208)              (3.2)
               2011              $6,095                    (189)              (3.0)
            Source: OIG analysis of budget figures obtained from OEM.


Conclusions

            EPA should strengthen its program guidance and oversight to ensure that it
            conducts effective inspections at program facilities. We found that inspection
            reports lacked information on the scope of the inspection. An effective inspection
            program is a critical EPA tool for ensuring compliance with program regulations
            and decreasing the risk of airborne releases of harmful chemicals that could
            impact the public. It is important that EPA conduct effective inspections at
            facilities covered under the RMProgram because of the potential consequences of
            noncompliance with the program requirements. A facility’s failure to follow
            program requirements could lead to accidental releases of harmful chemicals
            and/or inadequate responses to protect the public when such accidents occur.

Recommendations

            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response coordinate with the Assistant Administrator for Enforcement and
            Compliance Assurance to:

               7. 	 Revise inspection guidance to recommend minimum inspection scope for
                    the various types of facilities covered under the program and provide more
                    detailed examples of minimum reporting.

               8. 	 Develop and implement an inspection monitoring and oversight program to
                    better manage and assess the quality of program inspections, reports,
                    supervisory oversight, and compliance with inspection guidance.

               9. 	 Analyze national program measures to assess whether the number of
                    required inspections should be modified to allow more time for inspecting
                    larger and more complex high-risk facilities.

Agency Comments and OIG Evaluation
            OSWER generally agreed with this chapter’s findings and recommendations.
            OSWER noted that the corrective actions to implement our draft report’s
            recommendations 7, 8, and 9 require coordinated effort between OSWER and
            OECA. Thus, we have revised the recommendation in our final report to


13-P-0178                                                                                   21
            acknowledge OECA’s role. OSWER’s response suggested that we combine
            recommendations 7 and 8 and offered revisions to recommendation 9 to fully
            address the findings in our report. We agreed with these suggestions and
            combined our draft report recommendations 7 and 8 into final report
            recommendation 7. We also revised draft recommendation 9, which is now
            recommendation 8 in the final report. Draft report recommendation 10 is now
            recommendation 9 in the final report. OSWER provided estimated completion
            dates for actions that meet the intent of our final report recommendations 7 and 8.
            Thus recommendations 7 and 8 are open pending completion of the planned
            actions. Recommendation 9 is unresolved pending receipt of a planned
            completion date for the corrective action.




13-P-0178                                                                                    22
                                           Status of Recommendations and
                                             Potential Monetary Benefits
                                                              RECOMMENDATIONS                                                           POTENTIAL MONETARY
                                                                                                                                         BENEFITS (in $000s)

                                                                                                                            Planned
Rec.   Page                                                                                                                Completion   Claimed    Agreed-To
No.     No.                                  Subject                               Status1         Action Official            Date      Amount      Amount

 1         14     Revise the program-specific curriculum training for CAA            O       Assistant Administrator for    2/28/13
                  112(r) Risk Management Program inspectors to clarify the                       Enforcement and
                  basic and program-specific inspector refresher requirements.                Compliance Assurance
 2         14     Develop guidance for conducting compliance audits per              O       Assistant Administrator for     2/28/13
                  EPA Order 3500.1, ensure that each region designates a                         Enforcement and
                  single point of contact responsible for auditing regional                   Compliance Assurance
                  compliance with EPA Order 3500.1, and require periodic
                  reporting of regional compliance with the order.
 3         14      Strengthen controls over the credentials process to ensure        C       Assistant Administrator for     1/11/13
                   that credentials are only issued to inspectors who                           Administration and
                   demonstrate that they have met the minimum training                        Resources Management
                   requirements of EPA Order 3500.1.
 4         14      Amend existing cooperative agreements for SEE enrollee            O       Assistant Administrator for     6/30/13
                   inspectors to require compliance with EPA Order 3500.1                       Administration and
                   and ensure that SEE enrollee position descriptions for                     Resources Management
                   RMProgram inspectors include the specific training
                   requirements applicable to the position.
 5         14      Direct EPA Regions 2, 4, 7, and 10 to amend their                 U       Assistant Administrator for
                   contracts for inspection support to include provisions                       Administration and
                   requiring contractor inspectors to meet EPA Order 3500.1                   Resources Management
                   training requirements.
 6         14     Correct limitations in the Emergency Management Portal –           U       Assistant Administrator for
                  Field Readiness Module training system, such as                                 Solid Waste and
                  populating the system with a complete list of training                      Emergency Response
                  requirements and enabling certificates to be uploaded into
                  the system.
 7         21     Coordinate with the Assistant Administrator for                    O       Assistant Administrator for     7/31/14
                  Enforcement and Compliance Assurance to revise                                  Solid Waste and
                  inspection guidance to recommend minimum inspection                         Emergency Response
                  scope for the various types of facilities covered under the
                  program and provide more detailed examples of minimum
                  reporting.
 8         21     Coordinate with the Assistant Administrator for                    O       Assistant Administrator for     9/30/14
                  Enforcement and Compliance Assurance to develop and                             Solid Waste and
                  implement an inspection monitoring and oversight program                    Emergency Response
                  to better manage and assess the quality of program
                  inspections, reports, supervisory oversight, and compliance
                  with inspection guidance.
 9         21     Coordinate with the Assistant Administrator for                    U       Assistant Administrator for
                  Enforcement and Compliance Assurance to analyze                                 Solid Waste and
                  national program measures to assess whether the number                      Emergency Response
                  of required inspections should be modified to allow more
                  time for inspecting larger and more complex high-risk
                  facilities.



       1    O = recommendation is open with agreed-to corrective actions pending
            C = recommendation is closed with all agreed-to actions completed
            U = recommendation is unresolved with resolution efforts in progress




       13-P-0178                                                                                                                                  23
                                                                                                     Appendix A

                  Description of RMProgram Elements
   RMProgram
     element                           General description of program element requirements
Management          Management system to oversee implementation of the program elements.
Hazard              Assessment to determine the potential hazards presented by the covered process. Include
Assessment          worst-case release scenarios, offsite consequences analysis, and 5-year accident history.
Prevention          Includes information pertaining to the hazards of the regulated substances used or produced
Program:            by the process, information pertaining to the technology of the process, and information
Process Safety      pertaining to the equipment in the process.
Information
Process Hazard      Identify, evaluate, and control the hazards involved in the process. Update and re-evaluate at
Analysis            least every 5 years.
Operating           Written procedures that provide clear instructions for safely conducting activities involved in
Procedures          each covered process consistent with the process safety information
Training            Each employee involved in operating a process, and each employee before being involved in
                    operating a newly assigned process, shall be trained in an overview of the process and in the
                    operating procedures.
Mechanical          Applies to certain process equipment such as storage vessels, piping, and vents. Establish
Integrity           and implement written procedures to maintain the ongoing integrity of process equipment.
Management of       Establish and implement written procedures to manage changes to process chemicals,
Change              technology, equipment, and procedures; and changes to stationary sources that affect a
                    covered process.
Pre-Start Up        Required safety review when new stationary sources are built and existing stationary sources
Review              are modified and the modification is significant enough to require a change in the process
                    safety information.
Compliance          Evaluate facility compliance with the RMProgram at least every 3 years to verify that
Audits              procedures and practices are adequate and are being followed.
Incident            Investigate each incident that resulted in, or could reasonably have resulted in, a catastrophic
Investigation       release of a regulated substance.
Employee            Develop a written plan of action for implementing employee participation requirements.
Participation       Employees and their representatives shall be consulted on the conduct and development of
                    process hazards analyses and on the development of the other elements of process safety
                    management. Employees provided with access to process hazard analyses and to all other
                    information required under the RMProgram.
Hot Work Permit     Must issue permit for hot work conducted on or near a covered process. Permit shall
                    document that the fire prevention and protection requirements in 29 CFR 1910.252(a) have
                    been implemented prior to beginning the hot work operations.
Contractors         Obtain and evaluate information regarding the contract owner’s or operator’s safety
                    performance and programs when hiring a contractor to work on or near a covered process.
Emergency           For facilities where employees will respond to accidental releases. Develop and implement
Response            an emergency response program for the purpose of protecting public health and the
                    environment.
Source: OIG analysis of checklists and 40 CFR Part 68.




13-P-0178                                                                                                              24
                                                                                  Appendix B

                   OECA Response to Draft Report


                                      December 21, 2012

MEMORANDUM

SUBJECT: Response to Draft Report: Improvements Needed in EPA Training and Oversight
         for Risk Management Program (RMP) Inspections, Project No. OPE-FY11-
         0012

FROM:         Cynthia Giles
              Assistant Administrator
              Office of Enforcement and Compliance Assurance

TO:           Carolyn Copper
              Assistant Inspector General for Program Evaluation

This memorandum is in response to the Draft Report: Improvements Needed in EPA Training
and Oversight for Risk Management Program (RMP) Inspections, Project No. OPE-FYII-0012
(Draft Report) issued on November 29, 2012, by the Office of the inspector General (OIG). We
appreciate the opportunity to review and comment on the Draft Report and respond to the
recommendations directed to the Office of Enforcement and Compliance Assurance (OECA).

With respect to the factual accuracy of the Draft Report, recommendation #2 on page 20
references "EPA Order 3510." The correct reference should be "EPA Order 3500.1." We have
confirmed with Rick Beusse, Director, Office of Program Evaluation, OIG that this was a
typographical error.

With respect to the two recommendations for which OECA was designated the "Action official",
we offer the following response and proposed corrective actions:

       Recommendation 1: Revise EPA Order 3500.1 to clarify training requirements for basic
       and program-specific refresher training.

       OECA Response: OECA does not concur with this recommendation. OECA does not
       agree that the language in EPA Order 3500.1 is ambiguous regarding refresher training
       requirements, or that revisions to the Order are necessary. However, OECA agrees that
       clarity on the basic and program-specific refresher training requirements for the Clean
       Air Act (CAA) 112(r) Risk Management Program (RMP) can be provided via revisions
       to the CAA 112(r) RMP program specific inspector training requirements. OECA will
       complete these revisions by February 28, 2013.


13-P-0178                                                                                        25
       Recommendation 2: Develop guidance for conducting compliance audits per EPA Order
       3500.1, ensure that each region designates a single point of contact responsible for
       auditing regional compliance with EPA Order 3500.1, and require periodic reporting of
       regional compliance with the Order.

       OECA Response: OECA concurs with the recommendation to develop guidance and
       ensure that each region designates a single point of contact. However, instead of guidance
       for conducting audits per EPA Order 3500.1, OECA will commit to developing a
       checklist for the regions to assist them as they audit their inspection credential programs.
       OECA will develop the checklist, and request the single points of contact by February 28,
       2013. With respect to periodic reporting of regional compliance with the Order, OECA
       anticipates that this issue will be addressed as part of the larger Agency Consistent Field
       Operations (CFO) effort that has been charged by the EPA Deputy Administrator to be
       led by the [Consistent Field Operations] CFO workgroup. A specific task of the
       [Consistent Field Operations] CFO workgroup involves ensuring implementation of, and
       ongoing compliance with, Field Operations Group (FOG) guidelines, including
       guidelines for inspector training and qualifications.


Should you have any questions or concerns regarding this response, please contact Gwendolyn
Spriggs, the OECA Audit Liaison, at 202-564-2439.

Attachment

cc:    	Lisa Lund, OECA/OC
       Susan Shinkman, OECA/OCE
       Mamie Miller, OECA/OC
       Lauren Kabler, OECA/OCE
       Gwendolyn Spriggs, OECA/OAP
       Mathy Stanislaus, OSWER
       Johnsie Webster, OSWER
       Craig Hooks, OARM
       Bernie Davis, OARM
       Rick Beusse, OIG




13-P-0178                                                                                       26
                                                                                    Appendix C

                   OARM Response to Draft Report


                                         January 11, 2013

MEMORANDUM

SUBJECT:       Response to Draft Report: Improvements Needed in EPA Training and Oversight
               for Risk Management Program Inspections

FROM:          Craig E. Hooks
               Assistant Administrator

TO:            Carolyn Copper, Assistant Inspector General for Program Evaluation
               Office of Inspector General

The Office of Administration and Resources Management appreciates the opportunity to review
and provide comments to the above cited November 29, 2012, report, Project No. OPE-FY11 -
0012). For clarification purposes, EPA Order 3510, most recently dated 10/31/2012, should be
cited in the report rather than 3500.1. Responses to recommendations 3, 4 and 5 addressed to
OARM are provided below:

Recommendation 3: "Strengthen controls over the credentials process to ensure that credentials
are only issued to inspectors who demonstrate that they have met the minimum training
requirements of EPA Order 3500.1."

Response: OARM agrees with this recommendation although it should be directed to OECA,
which, in their response to recommendation 2, committed to developing a checklist for use by
headquarters and regional programs to assist in auditing their inspection credential programs and
ensuring proper documentation and completion certification of inspector training requirements
prior to requesting a new or reissued credential. OARM will continue the practice of validating
that a supervisor has signed the Credential Request Form, which not only verifies that the
employee has completed the training, but that the credential is necessary for their job
performance and which credential is being authorized. This is consistent with our responsibilities
as stated on page 7 of order 3510: "OARM will provide EPA employees a credential only after
verification by the employee's supervisor that they have completed all required training ...”

Recommendation 4: "Amend existing cooperative agreements for SEE enrollee inspectors to
require compliance with EPA Order 3500.1 and ensure that SEE enrollee position descriptions
for RMProgram inspectors include the specific training requirements applicable to the position.”




13-P-0178                                                                                        27
Response: OARM agrees with this recommendation. To ensure compliance with order 3510, by
June 30, 2013, OARM's Office of Human Resources will amend all existing SEE cooperative
agreements to require that SEE enrollee position descriptions for inspectors include a
requirement that all EPA-required training applicable to the position be listed in the position
description.

Recommendation 5: "Direct EPA Regions 1, 2, 4, 7, and 10 to amend their contracts for
inspection support to include provisions requiring contractor inspectors to meet EPA Order
3500.1 training requirements."

Response: OARM agrees with this recommendation. In order 3510, page 6, section 4g, OECA is
responsible for establishing requirements for non-EPA written agreements, including contract
statements of work and contracts. After these requirements are developed, OARM can
collaborate with the regions to ensure the contracts are modified.

If you have any questions about these responses, OARM's points of contact are:
recommendation 3: Diane Dixon, Security Management Division - (202) 564-2154;
recommendation 4: Yvette Carter, Office of Human Resources- (202) 564-7896; and
recommendation 5: Lisa Maass, Office of Acquisition Management- (202) 564-2498.

cc: 	   Cynthia Giles, OECA
        Lawrence Starfield, OECA
        John Bashista, OAM
        Susan Kantrowitz, OHR
        Renee Page, OA
        John Showman, OPRM




13-P-0178                                                                                     28
                                                                                   Appendix D

                  OSWER Response to Draft Report


                                         January 16, 2013

SUBJECT:	 OSWER Response to the OIG Draft Evaluation Report, “Improvements Needed
          in EPA Training and Oversight for Risk Management Program Inspections”

FROM:         Mathy Stanislaus
              Assistant Administrator

TO:	          Carolyn Copper
              Assistant Inspector General for Program Evaluation

Thank you for the opportunity to review and comment on the Draft OIG Evaluation Report,
“Improvements Needed in EPA Training and Oversight for Risk Management Program
Inspections”. The Office of Solid Waste and Emergency Response (OSWER) has completed its
review and concurs with the proposed recommendations specific to OSWER. Additionally, we
have made several specific editorial comments on the factual accuracy and content of the
recommendations in the draft report, which we have included in the attached copy of the report.

On the whole, we agree with the findings and recommendations discussed in the report. For the
past several years we have been working in close coordination with the Office of Enforcement
and Compliance Assurance (OECA) on several of these issues. It is encouraging that the findings
in the report show we are moving in the right direction and we will continue working to further
improve the implementation of the Risk Management Program. Below is our response to the
recommendations.

In Chapter 2, recommendation 6 states:

       6.	    Correct limitations in the Emergency Management Portal – Field Readiness
              Module training system, such as populating the system with a complete list of
              training requirements and enabling certificates to be uploaded into the system.

This recommendation was completed in September 2012.

In Chapter 3, recommendations 7 - 10 state:

       7. 	   Revise inspection guidance to recommend minimum inspection scope for the
              various types of facilities covered under the program.

       8. 	   Expand guidance on reporting to provide more detailed examples of minimum
              reporting.


13-P-0178                                                                                       29
       9. 	    Develop a post-inspection monitoring program to assess the quality of program
               inspections and compliance with inspection guidance.

       10. 	   In coordination with OECA, analyze national program measures to assess whether
               the number of required inspections should be modified to allow more time for
               inspecting larger and more complex high-risk facilities.


OSWER will continue to work closely with OECA in developing appropriate policies,
procedures, and guidance to implement these recommendations. For recommendations 7 and 8,
OSWER and OECA will work with the Regions to develop draft guidance by December 2013,
which specifies minimum inspection scope and examples for various types of inspections to
assist Regions in focusing their limited resources on the most significant issues at facilities.
Based on discussions with and reviews by the Regions, a final guidance will be published in July
2014. 
 
For recommendation 9, OSWER and OECA are working with the Regions to identify key
components of a repository of inspection reports in order to better ensure and assess the quality
of RMP inspections. This repository system will be developed by the end of FY2014 and piloted
with the Regions in FY2015. During the pilot, a process will be developed and implemented to
review and assess the quality of the inspections and reports against established procedures and
guidance.

We would also like to point out that our office has been, and will continue to, work closely with
OECA as we analyze and assess the national RMP program measures as per your
recommendation 10. Specifically, OSWER and OECA jointly have revised their National
Program Manager Guidance each year to reduce the overall number of RMP inspections while
increasing the percentage of high risk inspections in order to ensure the Regions have the
resources and time to inspect these more complex, higher risk facilities. We are also providing
more in-depth, technical training to our inspectors related to the types of high risk facilities they
will be inspecting.

Again, we appreciate the opportunity to provide our responses to the recommendations in this
report. If you have any questions or comments, please contact Kim Jennings at (202) 564-7998.

Attachment




13-P-0178                                                                                           30
                                                                            Appendix E

                                    Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the Chief Financial Officer)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0178                                                                           31
